Report No. DODIG-2013-050                  February 22, 2013




     Recovering Organizational Clothing and Individual
         Equipment from Civilians and Contractor
             Employees Remains a Challenge
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary Reports
Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms

AMC                           Army Materiel Command
CIF                           Central Issue Facility
CIF-ISM                       Central Issue Facility - Installation Support Module
CMO                           Central Management Office
DPAP                          Defense Procurement and Acquisition Policy
OASD(L&MR)                    Office of the Assistant Secretary of Defense for Logistics
                                 and Materiel Readiness
OUSD(AT&L)                    Office of the Under Secretary of Defense for Acquisition,
                                 Technology, and Logistics
OCIE                          Organizational Clothing and Individual Equipment
SPOT                          Synchronized Predeployment and Operational Tracker
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500

                                                                                FEB 2 2 2013


MEMORANDUM FOR UNDERSECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Recovering Organizational Clothing and Individual Equipment From Civilians and
         Contractor Employees Remains a Challenge (Report No. DODIG-2013-050)

We are providing this report for your information and use. Despite the Army's efforts to
improve controls over the tracking and recovery of clothing and equipment, we identified
approximately $20 million in unreturned clothing and equipment issued to civilians and
contractor employees who deployed from Fort Benning and Camp Atterbury between
October 2006 and May 2012. Officials from the Office of the Under Secretary ofDefense for
Acquisition, Technology, and Logistics did not address the recommendations in a prior
DoD Office of Inspector General report in a timely manner. As a result, inadequate procedures
to recover clothing and equipment from civilians and contractor employees resulted in increased
costs to replace clothing and equipment and potential loss of funds from uncollected debt.

We considered management comments on a draft of this report when preparing the final repmi.
The Assistant Secretary of Defense for Logistics and Materiel Readiness responded on behalf of
the Under Secretary of Defense for Acquisition, Technology, and Logistics. Comments from the
Assistant Secretary of Defense for Logistics and Materiel Readiness conformed to the
requirements of DoD Directive 7650.3; therefore, additional comments are not required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866 (DSN 664-8866).



                                            a~~
                                             A1tce
                                                   ~~~
                                                     U.
                                                   F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations, and Support

cc:
Assistant Secretary of Defense for Logistics and Materiel Readiness
Director, Defense Procurement and Acquisition Policy
Report No. DODIG-2013-050 (Project No. D2012-D000LD-0067.000)                            February 22, 2013

                Results in Brief: Recovering Organizational
                Clothing and Individual Equipment From
                Civilians and Contractor Employees
                Remains a Challenge
                                                           recovery of OCIE. Despite these efforts to improve
What We Did                                                controls, many challenges related to the recovery of
                                                           OCIE from civilians and contractor employees still
Our objective was to determine whether the Office          existed and resulted in increased costs to replace
of the Under Secretary of Defense for Acquisition,         unreturned OCIE, as well as potential loss of funds
Technology, and Logistics (OUSD[AT&L])                     from uncollected debt. For example, we identified
established a working group and developed and              approximately $20 million in unreturned OCIE
implemented procedures to recover organizational           issued to civilian and contractor employees who
clothing and individual equipment (OCIE) from              deployed from Fort Benning and Camp Atterbury
civilians and contractor employees, as recommended         between October 2006 and May 2012. Improved
in DoD Office of Inspector General                         procedures to recover OCIE from civilians and
Report No. D-2010-069, “Central Issue Facilities at        contractor employees should reduce costs for
Fort Benning and Related Activities,” June 21, 2010.       replacing unreturned OCIE and decrease the
We also determined whether Army personnel                  potential loss of funds from uncollected debt.
implemented controls to mitigate risks associated
with OCIE recovery.
                                                           What We Recommend
What We Found                                              We recommend that the Under Secretary of Defense
                                                           for Acquisition, Technology, and Logistics,
OUSD(AT&L) officials did not establish a working           implement corrective actions to address the
group or develop and implement procedures to               recommendations in Report No. D-2010-069 and
recover OCIE from civilians and contractor                 develop a time-phased plan with measurable goals
employees. Instead, Office of the Assistant                and metrics regarding the implementation of
Secretary of Defense for Logistics and Materiel            recommendations in that report.
Readiness officials discussed the prior report
recommendations during existing working group
meetings and agreed that the Army would serve as           Management Comments and
the lead agent and develop and implement corrective        Our Response
actions. However, neither the discussion nor the
                                                           The Assistant Secretary of Defense for Logistics and
decision to delegate the responsibility to the Army
                                                           Materiel Readiness responded on behalf of the
was documented.
                                                           Under Secretary of Defense for Acquisition,
                                                           Technology, and Logistics. Management comments
In addition, Defense Procurement and Acquisition
                                                           were responsive to the recommendations. Although
Policy officials did not review contracting policies
                                                           not required to comment, the Director, Supply
for necessary changes. This occurred because
                                                           Directorate, Army G-4, provided informal comments
Defense Procurement and Acquisition Policy
                                                           and agreed with the response from the Office of the
officials were waiting for the results from the
                                                           Under Secretary of Defense for Acquisition,
working group before changing contracting policies.
                                                           Technology, and Logistics. Please see the
                                                           recommendations table on the back of this page.
Army officials from Army G-4, Army Materiel
Command, and the central issue facilities at
Fort Benning and Camp Atterbury implemented
some controls to mitigate risks associated with

                                                       i
Report No. DODIG-2013-050 (Project No. D2012-D000LD-0067.000)             February 22, 2013


      Recommendations Table

              Management                Recommendations               No Additional
                                       Requiring Comment          Comments Required
      Under Secretary of Defense for                            1.a, 1.b, 1.c, and 2
      Acquisition, Technology, and
      Logistics




                                             ii
Table of Contents
Introduction                                                                            1

      Objectives                                                                        1
      Office of the Under Secretary of Defense for Acquisition, Technology, and
          Logistics and Army Responsibilities                                           1
      Deployment Centers, Central Issue Facilities, and Organizational Clothing and
          Individual Equipment Issue Procedures                                         2
      Joint Clothing and Textiles Governance Board and Advisory Group                   3
      Review of Internal Controls                                                       3

Finding. Challenges Recovering Organizational Clothing and Individual
Equipment From Civilians and Contractor Employees Remain                                4

      Office of the Under Secretary of Defense for Acquisition, Technology, and
         Logistics Did Not Take Corrective Actions in Response to Prior
         Report Recommendations                                                         4
             Office of the Assistant Secretary of Defense for Logistics and Materiel
                  Readiness Did Not Effectively Address the Recommendations
                  Through an Existing Working Group                                     5
             Defense Procurement and Acquisition Policy Did Not Review
                  Contracting Policies                                                  6
      Army Implemented Some Controls to Recover Organizational Clothing and
         Individual Equipment                                                           6
      Challenges With Organizational Clothing and Individual Equipment
         Recovery Remain                                                                7
             Limited Visibility of Redeployments                                        8
             Inadequate Central Issue Facility Procedures to Recover Organizational
                  Clothing and Individual Equipment or Obtain Reimbursement             8
      Replacing Organizational Clothing and Individual Equipment and
         Uncollected Debts From Unreturned Organizational Clothing and
         Individual Equipment Affected DoD and Federal Budgets                         10
      Conclusion                                                                       11
      Recommendations, Management Comments, and Our Response                           12

Appendixes

      A. Scope and Methodology                                                         14
            Use of Computer-Processed Data                                             15
            Prior Coverage                                                             15
Table of Contents (cont’d)
Appendixes (cont’d)

      B. Report No. D-2010-069 Finding, Recommendations, and
            Internal Control Weaknesses                                        16
            Army Controls Over Organizational Clothing and Individual
                Equipment Items Issued to Civilians and Contractor Employees   16
            Internal Control Weaknesses Identified in Report No. D-2010-069    17
            Recommendations From Report No. D-2010-069                         17
            Synopsis of Comments in Response to the Recommendations            18

Management Comments

      Under Secretary of Defense for Acquisition, Technology, and Logistics    19
Introduction
Objectives
Our objective was to determine whether the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics (OUSD[AT&L]) established a working group
and developed and implemented procedures to recover organizational clothing and
individual equipment (OCIE) from civilians and contractor employees, 1 as recommended
in DoD Office of Inspector General Report No. D-2010-069, “Central Issue Facility at
Fort Benning and Related Army Policies,” June 21, 2010. 2 While the recommendations
were addressed to officials from OUSD(AT&L), we also reviewed whether responsible
Army personnel implemented controls to mitigate risks associated with issuing and
recovering OCIE. See Appendix A for a discussion of our scope and methodology.

We focused our audit on the Central Issue Facilities (CIFs) at Fort Benning, Georgia, and
Camp Atterbury Joint Maneuver Training Center (Camp Atterbury) at Camp Atterbury,
Indiana. Fort Benning was the subject of Report No. D-2010-069. Additionally, in
September 2011, Camp Atterbury assumed the responsibility for preparing contractors,
not affiliated with the Logistics Civil Augmentation Program, for overseas deployments.

OUSD(AT&L) and Army Responsibilities
OUSD(AT&L) is responsible for logistics, maintenance, and sustainment support for all
elements of DoD. OUSD(AT&L) has authority to establish DoD policy and develop
implementing guidance on all matters relating to the clothing and textiles supply chain.
The Office of the Assistant Secretary of Defense for Logistics and Materiel Readiness
(OASD[L&MR]), an office within OUSD(AT&L), is responsible for prescribing policies
and procedures for the execution of DoD sustainment support, as well as advising and
assisting OUSD(AT&L) in providing guidance to the military departments. Defense
Procurement and Acquisition Policy (DPAP) is also an office within OUSD(AT&L) and
is responsible for all contracting and procurement policy matters.

Within the Army, responsibilities related to the issue and recovery of OCIE to civilians
and contractor employees reside with different organizations and commands. Army G-4
is responsible for providing and overseeing integrated logistics policies, programs, and
plans, including property accountability. The Army Materiel Command (AMC) is
responsible for developing, delivering, and sustaining Army materiel. AMC supports the




1
  This report addresses contractors not affiliated with the Logistics Civil Augmentation Program. Those
contractors go through a different deployment center.
2
  We did not address Recommendation (1)(b) from Report No. D-2010-069 related to ensuring individuals
turn in their OCIE to the in-theater central issue facility and transfer custody of chemical biological
equipment. The Army did not establish a fully functioning CIF in theater as planned and the Army tracks
chemical biological equipment using different regulations and a different property accountability system.
Therefore, we did not perform follow up on Recommendation (1)(b) during this audit.


                                                    1
civilian and contractor employee deployment mission at Camp Atterbury. Finally, the
OCIE Central Management Office (CMO), which falls under AMC, centrally funds and
manages most OCIE for civilians and contractor employees.

Deployment Centers, CIFs, and OCIE Issue Procedures
In preparation for deployment, DoD and Army policies require that civilians and
contractor employees go to a deployment center to receive OCIE, as well as identification
cards, medical screening, and training. Civilians can deploy and redeploy through the
Continental United States Replacement Center at Fort Benning or the Individual
Replacement and Deployment Operations center at Camp Atterbury. As of
September 1, 2011, Army policy requires all contractor employees to deploy and
redeploy through Camp Atterbury. “Department of the Army Personnel Policy Guide for
Overseas Contingency Operations,” August 2012, requires all personnel to redeploy to
the same deployment center when they complete their tour of duty. Camp Atterbury CIF
personnel reported that, from October 2010 through May 2012, approximately
16,000 civilian and contractor employees deployed through Camp Atterbury, and
approximately 6,800 civilians and contractor employees redeployed there. Fort Benning
CIF personnel reported that, from October 2009 through September 2011, approximately
26,600 civilians and contractor employees deployed through Fort Benning, and
approximately 14,200 civilians and contractor employees redeployed there.

Both Fort Benning and Camp Atterbury have a CIF that is responsible for stocking,
issuing, recovering, and accounting for OCIE. These CIFs issue OCIE to civilians and
contractor employees from all Services and Defense agencies. Civilians and contractor
employees receive OCIE at the CIF based on their mission and theater of deployment.
At a minimum, the CIF provides equipment, such as duffel bags, body armor, a helmet,
and a chemical biological mask. Additional items issued to civilians and some contractor
employees (such as linguists and law enforcement officials) include clothing, safety
glasses, and sleeping bags. On average, civilians receive OCIE, valued at about $5,300,
and contractor employees receive OCIE, valued at about $3,400.

Army CIFs use the CIF-Installation Support Module (CIF-ISM) to track the issue and
return of OCIE. When CIF personnel issue OCIE, CIF-ISM generates a clothing record
for each individual that identifies the specific OCIE items issued, to include quantity and
size, and whether the item must be returned upon redeployment. 3 CIF personnel use
CIF-ISM to check a civilian or contractor employee’s clothing record for unreturned
OCIE.




3
    Civilians and contractor employees do not have to return some items, such as hats, socks, and boots.


                                                       2
Joint Clothing and Textiles Governance Board and
Advisory Group
The Defense Logistics Agency established the Joint Clothing and Textiles Governance
Board (the Governance Board) in accordance with DoD Instruction 4140.63,
“Management of DoD Clothing and Textiles (Class II),” August 5, 2008. This
Instruction requires the Director, Defense Logistics Agency, under the authority,
direction, and control of the OASD(L&MR), to establish and chair a Governance Board
that includes representation from the Military Services and other DoD Components.
The Director, Defense Logistics Agency, established the Governance Board to ensure
collaboration and DoD-wide integration of clothing and textiles activities, including
planning, procurement, storage, and supply, to support military operations. The Joint
Clothing and Textiles Advisory Group (the Advisory Group) is responsible for
coordinating Governance Board efforts and recommending meeting dates and agendas.
The Advisory Group meets monthly to research and address DoD clothing and textile
issues, such as reducing inventory and adopting a standard combat uniform. The
Advisory Group provides information and recommendations to the Governance Board,
which meets at least annually. Although Defense Logistics Agency personnel officially
chair the Governance Board and Advisory Group, representatives from OASD(L&MR)
play a significant role on both the Governance Board and Advisory Group.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls to provide reasonable assurance that programs are operating as intended
and to evaluate the effectiveness of the controls. Report No. D-2010-069 identified
internal control weaknesses related to the Army’s recovery of OCIE from redeploying
civilians and contractor employees. To address the internal control weaknesses, we made
recommendations to OUSD(AT&L) officials concerning establishing a working group to
address OCIE recovery problems and requirements for DoD Components, including
proper contract language to hold DoD contractors liable for unreturned OCIE.
OUSD(AT&L) officials agreed with the recommendations. Appendix B includes the
finding, recommendations, and internal control weaknesses identified in
Report No. D-2010-069, as well as a synopsis of OASD(L&MR) and DPAP comments to
the final report.

During this audit, we determined that OUSD(AT&L) officials did not address the prior
report recommendations in a timely manner, and as a result, some internal control
weaknesses identified in Report No. D-2010-069 remained. We will provide a copy of
the report to the senior official responsible for internal controls within OUSD(AT&L)
and the Department of the Army.




                                           3
Finding. Challenges Recovering OCIE From
Civilians and Contractor Employees Remain
OUSD(AT&L) officials did not establish a working group or develop and implement
procedures to recover OCIE from civilians and contractor employees. This occurred
because OASD(L&MR) officials stated that they discussed the recommendations during
existing working group meetings and agreed that the Army would serve as the lead agent
and develop and implement corrective actions. However, neither the discussion nor the
decision was documented.

In addition, DPAP officials did not review contracting policies for necessary changes.
This occurred because DPAP officials stated that OCIE recovery is a logistics and
inventory management problem and that they were waiting for results from the working
group before changing contracting policies.

Although OASD(L&MR) and DPAP were responsible for addressing the
recommendations, Army officials from Army G-4, AMC, and the CIFs implemented
some controls to mitigate risks associated with recovering OCIE from civilians and
contractor employees. For example, CIF personnel began screening civilians and
contractor employees to determine whether they had unreturned OCIE before issuing
OCIE for deployments.

Despite the Army’s efforts to improve these controls, many of the problems related to the
recovery of OCIE from civilians and contractor employees identified in
Report No. D-2010-069 still exist, which resulted in increased costs to replace unreturned
OCIE and potential loss of funds from uncollected debt. For example, we identified
approximately $20 million in unreturned OCIE issued to civilian and contractor
employees who deployed from Fort Benning and Camp Atterbury between October 2006
and May 2012. Improved procedures to recover OCIE from civilians and contractor
employees should reduce costs for replacing unreturned OCIE and decrease potential loss
of funds from uncollected debt.

OUSD(AT&L) Did Not Take Corrective Actions in
Response to Prior Report Recommendations
Report No. D-2010-069 identified that the Army could not identify civilians and
contractor employees with unreturned OCIE and that the Army did not recover or obtain
reimbursement for unreturned OCIE. The report identified inadequate controls over the
process for recovering or obtaining reimbursement for unreturned OCIE and identified
approximately $2.5 million in unreturned OCIE issued between FY 2006 and FY 2007.

Officials from OASD(L&MR) agreed to establish a working group and develop and
implement procedures to improve OCIE recovery, as recommended in the report.
In addition, the Director, DPAP, agreed with the recommendation to require
DoD Components to include proper clauses and contract language, so contracting
companies could be held liable for unreturned OCIE. Through their agreement with the


                                            4
recommendations, OUSD(AT&L) officials acknowledged that the problem of unreturned
OCIE should be addressed at the OSD level. However, between June 2010 and
June 2012, officials from OUSD(AT&L), including OASD(L&MR) and DPAP, did not
take corrective actions on the prior report recommendations.

OASD(L&MR) Did Not Effectively Address the Recommendations
Through an Existing Working Group
OASD(L&MR) officials did not establish a working group or develop and implement
procedures to recover OCIE from civilians and contractor employees. OASD(L&MR)
officials stated that, rather than establish a new working group, they discussed the
recommendations during meetings of the Governance Board and Advisory Group, which
were existing working groups. OASD(L&MR) officials stated that the Advisory Group
discussed the findings and recommendations during a May 2011 meeting and agreed
during the meeting that the Army would
                                                    According to Army G-4 officials,
serve as the lead agent in addressing the
                                                   neither the Advisory Group nor the
recommendations. However, neither the
                                                  Governance Board officially assigned
meeting minutes nor the agenda from the
                                                        the responsibility for the
May 2011 Advisory Group meeting
                                                     recommendations to the Army.
supported the statements from
OASD(L&MR) officials. Additionally, according to Army G-4 officials, neither the
Advisory Group nor the Governance Board officially assigned the responsibility for the
recommendations to the Army. Finally, OASD(L&MR) officials also stated that the
Army provided a briefing on their plan to address the recommendations during a
November 2011 Governance Board meeting. However, the briefing focused on OCIE
modernization and did not address challenges with OCIE recovery.

Although the prior report made recommendations on tracking and recovery of OCIE in
June 2010, OASD(L&MR) officials waited approximately 2 years, until June 2012, to
begin addressing those recommendations. The Advisory Group and Governance Board
discussed the recommendations in June, July, and November 2012. The Advisory Group
designated each recommendation from the prior report as a special interest item.
In June 2012, the Advisory Group agreed to develop standard metrics for reporting
unreturned OCIE, and the Services agreed to provide status briefs at future meetings.
In July 2012, the Governance Board agreed with the Advisory Group decision to develop
metrics and agreed that the Services should assist OASD(L&MR) officials in developing
metrics to identify civilians and contractor employees who did not return OCIE.
In November 2012, the Advisory Group, including representatives from each Service,
met and discussed problems related to management of OCIE issued to contractors and
civilians. The Service representatives provided information related to their procedures
for issuing, tracking, and recovering OCIE, as well as key issues and challenges, such as
recovery of OCIE from contractors and the necessary contract language to hold
contractors accountable for returning OCIE. The OUSD(AT&L) representative stated
that the meeting was a good start to define the problems and determine the next step to
address the problems. The Advisory Group plans to use this information to develop
metrics that address unreturned OCIE and reimbursement.



                                            5
DPAP Did Not Review Contracting Policies
DPAP officials did not review contracting policies for necessary changes, as they agreed
to do in response to the recommendations. The Director, DPAP, agreed with a
recommendation from Report No. D-2010-069, and referenced Defense Federal
Acquisition Regulation Supplement Clause 252.225-7040, “Contractor Personnel
Authorized to Accompany U.S. Armed Forces Deployed Outside the United States,”
which requires contractors to redeploy through deployment centers and return all OCIE to
the point of issue, unless otherwise directed by the contracting officer. The Director,
DPAP, stated that this clause is required in all contracts where contractor employees
deploy overseas in support of contingency operations. The Director also stated that he
would evaluate the need to improve the required clause in current and future contracts
and provide supplementary procurement policy and guidance as necessary to enable the
proper issue and return of OCIE, in consideration of the recommendations developed by
the Advisory Group.

However, a DPAP representative stated that, as of October 2012, DPAP did not initiate
corrective action in response to the recommendation because OCIE recovery is a logistics
and inventory management problem. The DPAP representative also stated that they were
waiting to hear back from the Advisory Group before changing contracting policies.
The representative stated that OASD(L&MR) officials did not coordinate with DPAP or
inform them of the outcome of the Advisory Group’s discussions. The USD(AT&L)
should require DoD Components to include proper language in new contracts and modify
existing contracts to hold contracting companies liable for unreturned OCIE.

Army Implemented Some Controls to Recover OCIE
Although OASD(L&MR) and DPAP officials did not address the prior report
recommendations in a timely manner, Army officials implemented some controls to
mitigate risks associated with recovering OCIE from civilian and contractor employees.
Officials at AMC, Army G-4, and the CIFs at Fort Benning and Camp Atterbury
implemented controls that may help improve OCIE recovery. For example, in
September 2011, AMC centralized the contractor deployment mission at Camp Atterbury
because of unique contractor deployment requirements. Additionally, AMC established a
recurring flight between Camp Atterbury and Kuwait to help ensure contractor
employees redeployed through the CIF at Camp Atterbury. Camp Atterbury also began
providing transportation from the Indianapolis airport to Camp Atterbury to help ensure
civilians and contractor employees return to the CIF.

Army G-4 officials also implemented some controls to help improve recovery of OCIE
from civilians and contractor employees. For example, Army G-4 prompted changes to
the CIF-ISM database to distinguish individuals as “soldiers,” “civilians,” or “contractor
employees.” Before this change, CIF-ISM classified contractor employees as “civilians.”
Additionally, Army G-4 plans to modify the CIF-ISM system to capture additional
information, such as the contracting company, contracting officer, and the contracting
officer’s contact information to help Army personnel follow up with the contracting
officers on unreturned OCIE. Finally, in March 2012, Army G-4 officials began working
with personnel from the Defense Manpower Data Center to obtain deployment


                                            6
information from the Synchronized Predeployment and Operational Tracker (SPOT),
which is a DoD system that tracks the locations of deployed contractors. Army G-4
officials plan to compare the SPOT deployment information with data from CIF-ISM to
identify civilians and contractor employees who have redeployed but have outstanding
OCIE.

CIF personnel at Fort Benning and Camp Atterbury also implemented additional
measures to help improve OCIE recovery. Before issuing OCIE, CIF personnel at
Fort Benning and Camp Atterbury reviewed CIF-ISM clothing records for civilians and
contractor employees to identify whether they had any outstanding OCIE from previous
deployments. If the clothing record showed outstanding OCIE, CIF personnel did not
issue the same OCIE until the civilians or contractor employees returned the items or
reimbursed the Government. CIF personnel also executed pre-deployment briefings,
which emphasized to civilian and contractor employees their responsibilities for returning
all OCIE upon redeployment. Finally, in May 2012, Camp Atterbury CIF personnel
began offering a “Predeployment Success Seminar” to provide contracting companies
with tips and methods for improving deployment and redeployment processing for their
employees, including requirements to return OCIE.

Additionally, CIF personnel at Fort Benning and Camp Atterbury retained travel orders
for civilians and letters of authorization for contractor employees. These documents
identified the employee’s information, such as phone number and address, as well as the
name and contact information for the contracting officer. The prior report made a
recommendation related to retention of contact information for civilians and contractor
employees to enable CIF personnel to follow up on unreturned OCIE. By retaining travel
orders and letters of authorization, CIF personnel at Fort Benning and Camp Atterbury
maintained contact information necessary to follow up on outstanding OCIE. We
concluded that these actions met the intent of Recommendation (3) from the prior report
and closed the recommendation.

Challenges With OCIE Recovery Remain
Despite the Army’s efforts to improve these controls, many of the problems related to the
recovery of OCIE from civilians and contractor employees identified in the prior report
                                                     still exist. In June 2010, the prior
    OUSD(AT&L) officials did not take timely         report made recommendations for
  corrective action to address the prior report      DPAP and OASD(L&MR) officials to
  recommendations. Therefore, the Army still         improve the visibility of civilians and
      had limited visibility over redeploying        contractor employees redeploying
       civilians and contractor employees.           from theater. However,
                                                     OUSD(AT&L) officials did not take
timely corrective action to address the prior report recommendations. Therefore, the
Army still had limited visibility over redeploying civilians and contractor employees. In
addition, the CIFs at Fort Benning and Camp Atterbury did not have adequate procedures
to effectively recover or obtain reimbursement from civilians and contractor employees
for unreturned OCIE.



                                             7
Limited Visibility of Redeployments
The Army still had limited visibility of redeploying civilians and contractor employees.
The prior report identified that the Army could not:

     •   determine when civilians and contractor employees returned from deployment,
     •   ensure civilians and contractor employees redeployed through a CIF, and
     •   identify civilians and contractor employees who did not return OCIE.

During our followup audit, CIF personnel still could not identify when civilians and
contractor employees were scheduled to redeploy or whether they redeployed and still
had unreturned OCIE. CIF-ISM contains records of all OCIE issued to civilian and
contractor employees but does not track the locations of civilians and contractor
employees. Although the SPOT system tracks the locations of deployed contractors and
redeployment dates, CIF personnel did not use SPOT to identify civilians and contractor
employees who redeployed. Additionally, the Army could not ensure that civilian and
contractor employees redeployed from theater through a CIF. If civilians and contractor
employees took the recurring flight from Kuwait to Camp Atterbury, the Army tracked
them to ensure they returned their OCIE; however, CIF personnel stated that civilian and
contractor employees could take commercial flights home and skip the redeployment
process. In those situations, the Army still could not ensure that civilians and contractor
employees redeployed through a CIF to return OCIE.

The Army still faced limited visibility of civilian and contractor employees who are
redeploying because OUSD(AT&L) officials did not take timely corrective actions to
address the prior report recommendations. The USD(AT&L) should implement
corrective actions to identify civilians and contractor employees who returned from
deployment but did not return OCIE.

Inadequate CIF Procedures to Recover OCIE or
Obtain Reimbursement
The CIFs at Fort Benning and Camp Atterbury did not have adequate procedures to
effectively recover or obtain reimbursement for outstanding OCIE from civilians and
contractor employees. Army Regulation 735-5, “Policies and Procedures for Property
Accountability,” February 28, 2005, outlines the procedures for recovering unreturned
OCIE or obtaining reimbursement. The procedures depend on whether the individuals
returning from deployment are civilians or contractor employees and whether they admit
liability for the unreturned items. However, in all cases, CIF personnel must fill out the
appropriate paperwork to initiate a claim 4 for the unreturned OCIE and must follow up on
outstanding claims until they reach resolution.


4
  Army Regulation 735-5 requires CIF personnel to use a DD Form 200, “Financial Liability Investigation
of Property Loss (FLIPL),” or a DD Form 362, “Cash Collection Voucher/Statement of Charges,” to
initiate a claim against a civilian or contractor employee for unreturned OCIE. CIF personnel use CIF-ISM
to initiate the claim and generate the appropriate form. Each claim represents a debt to the Government for
the value of unreturned OCIE.


                                                    8
DoD Regulation 7000.14-R, “Financial Management Regulation,” volume 10, chapter 18,
“Contractor Debt Collection,” and Army Regulation 735-5 further outline the processes
for collecting debt from contracting companies. First, CIF personnel forward the claim to
the contracting officer for the contract. The contracting officer determines whether the
contractor employee is liable for the unreturned OCIE and issues a formal request for
return of OCIE or payment of debt within 30 days of the date of the request. The
contracting officer provides a copy of the request to the debt collection office. If the debt
collection office is unsuccessful in obtaining reimbursement within 60 days of the due
date, officials from the debt collection office refer the debts to the Defense Finance and
Accounting Service. The Defense Finance and Accounting Service then refers all debts
older than 180 days to the Department of the Treasury in accordance with section 3711,
title 31, United States Code, and the Debt Collection Improvement Act of 1996.

Although Fort Benning CIF personnel initiated claims against contractor employees who
had unreturned OCIE, personnel subsequently wrote off the liability and cleared
contractor employees’ clothing records without receiving payment for the unreturned
OCIE. Fort Benning CIF personnel stated that they attempted to forward claims to
contracting officers to recover OCIE or obtain reimbursement from contractor
employees, but they were generally unable to resolve the claims with the contracting
officers. CIF personnel also stated that in 2008, they were directed to close outstanding
                                                 claims and write-off debts for contractor
       Between FY 2010 and FY 2012,
                                                 employees with unreturned OCIE if
     Fort Benning CIF personnel closed
                                                 follow up attempts were not successful
  364 claims and wrote off debts, valued at
                                                 after 100 days. However, CIF personnel
    approximately $587,700, because each
                                                 could not provide documentation
        claim was older than 100 days.
                                                 supporting this directive. Between
FY 2010 and FY 2012, Fort Benning CIF personnel closed 364 claims and wrote off
debts, valued at approximately $587,700, because each claim was older than 100 days.
Closing these claims cleared the individual’s clothing record of all unreturned OCIE.
Therefore, if an individual subsequently deployed, he or she could receive additional
OCIE. However, according to DoD and Army policy, CIF personnel should have
continued to pursue these claims, through the contracting officers, until they were
resolved. 5

Camp Atterbury CIF personnel did not have procedures in place to recover or obtain
reimbursement for unreturned OCIE from civilians and contractor employees. When an
individual redeployed through the Camp Atterbury CIF and did not pay for unreturned
OCIE, CIF personnel at Camp Atterbury initiated a claim with the appropriate
paperwork. After generating these claims, CIF personnel kept them on file until the
individual paid or returned the outstanding OCIE. According to CIF personnel, civilians


5
  As of September 2011, the contractor deployment mission moved from Fort Benning to Camp Atterbury.
In FY 2012, Fort Benning CIF personnel closed only 6 claims (1.6 percent of the 364 claims) valued at
approximately $11,500. Therefore, while DoD and Army policy require CIF personnel to follow up on
these claims, the processes for closing claims and writing off debts for unreturned OCIE were largely
discontinued at Fort Benning.


                                                  9
and contractor employees had 30 days from their redeployment to either mail a certified
check or return the missing OCIE. However, if the individual did not return the OCIE or
pay the debt within the allotted 30 days, CIF personnel did not follow up with the
individual or the contracting officer.

Replacing OCIE and Uncollected Debts From
Unreturned OCIE Affected DoD and Federal Budgets
Limited visibility of redeployments and inadequate procedures for obtaining unreturned
OCIE or reimbursement, which were problems identified in Report No. D-2010-069,
resulted in increased costs to replace OCIE and potential loss of funds from uncollected
debts. The Army, through the OCIE CMO, centrally funds most OCIE issued to civilians
and contractor employees. When civilians and contractor employees redeploy through a
CIF to return OCIE, CIF personnel inspect all items, clean and repair them as necessary,
and then reissue the OCIE to other individuals. When civilians and contractor employees
do not return OCIE, the Army must purchase new OCIE to ensure the CIFs maintain an
adequate supply, which results in increased costs for the Army. Even when civilians and
contractor employees reimburse the Government for unreturned OCIE, the funds go to
the Treasury Department, not to the Army or DoD. Additionally, inadequate procedures
for referring debts to contracting officers and pursuing resolution resulted in potential
loss of funds from the Federal budget.

We identified approximately $20 million in unreturned OCIE between October 2006 and
May 2012. For example, from October 2009 through May 2012, we identified
approximately $931,000 of unreturned OCIE from civilians and contractor employees
who redeployed through Fort Benning and Camp Atterbury. For each of these claims,
civilians and contractor employees acknowledged having unreturned OCIE items. The
following table outlines the number of claims and total dollar value of unreturned OCIE
for Fort Benning and Camp Atterbury.

      Table. Outstanding Claims for Unreturned OCIE for Fort Benning and
              Camp Atterbury Between October 2009 and May 2012
                                                             Total Dollar Value of
     Location              Number of Claims                   Outstanding OCIE
                                                          (rounded to nearest hundred)
 Fort Benning                     364                              $587,700
 Camp Atterbury                   870                              $343,300
        Totals                   1,234                             $931,000

As stated earlier, Fort Benning CIF personnel stated that they attempted to follow up with
the civilians, contractor employees, or contracting officers to recover OCIE or obtain
payment for the items, but eventually wrote off the liabilities after 100 days. Similarly,
Camp Atterbury CIF personnel stated that they did not attempt to follow up with
civilians, contractor employees, or contracting officers to recover the items or obtain
reimbursement.



                                           10
In addition, between October 2006 and September 2010, the Fort Benning CIF issued
$18.9 million of OCIE to civilians and contractor employees, which was still unreturned
as of May 2012. Civilians accounted for $6.6 million of the unreturned OCIE, and
contractor employees accounted for $12.3 million of the unreturned OCIE. Because of
the timeframe, many civilians and contractor employees might have returned from
deployment but did not process through a CIF to return their OCIE items, as required.
Therefore, since the Army must purchase items to replace unreturned OCIE, improved
procedures to recover OCIE from civilians and contractor employees should reduce costs
for replacing unreturned OCIE and decrease potential loss of funds from uncollected
debt. The USD(AT&L) should implement corrective actions to obtain unreturned OCIE
or reimbursement from civilians and contractor employees.

Conclusion
While the Army initiated steps to improve the controls over the tracking and recovery of
OCIE, this is the second report on internal control weaknesses over those processes. The
challenges identified in 2010, such as limited visibility of redeploying civilians and
contractor employees, still remained, and resulted in increased costs to replace unreturned
OCIE. Furthermore, inadequate procedures for pursuing debts from unreturned OCIE
contributed to the increased potential loss of funds from debts. Over the last 6 years, we
identified close to $20 million in unreturned OCIE that, if recovered, should reduce some
costs for replacing OCIE.

Through their agreement with the prior recommendations, OUSD(AT&L) officials
acknowledged that the problem of unreturned OCIE should be addressed at the OSD
level. In particular, OASD(L&MR) and DPAP have the authorities in their respective
functional areas to implement positive change and make improvements in this area.
To ensure these changes and improvements, the USD(AT&L) should initiate
corrective action, including a time-phased plan with measurable goals and metrics, to
address the recommendations regarding OCIE recovery from civilians and contractor
employees.




                                            11
Recommendations, Management Comments, and
Our Response
We recommend that the Under Secretary of Defense for Acquisition, Technology,
and Logistics:

       1. Implement corrective actions to address all recommendations, with the
exception of Recommendation (1)(b), in DoD Office of Inspector General
Report No. D-2010-069, “Central Issue Facilities at Fort Benning and Related
Activities,” June 21, 2010, specifically:

         a. Identify civilians and contractor employees who returned from
deployment but did not return organizational clothing and individual equipment.

         b. Obtain unreturned organizational clothing and individual equipment
or reimbursement from civilians and contractor employees.

           c. Require DoD Components to include proper language in new
contracts and modify existing contracts to hold contracting companies liable for
unreturned organizational clothing and individual equipment.

Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments
The Assistant Secretary of Defense for Logistics and Materiel Readiness responded on
behalf of the Under Secretary of Defense for Acquisition, Technology, and Logistics.
The Assistant Secretary agreed and stated that the Office of the Assistant Secretary of
Defense for Logistics and Materiel Readiness, in collaboration with the Director, Defense
Procurement and Acquisition Policy, the Military Departments, the Defense Logistics
Agency, and other organizations as required, will develop corrective actions to address all
recommendations, with the exception of Recommendation 1(b), in the prior report. The
Assistant Secretary stated that corrective actions will include the following:

   •   developing procedures for all DoD OCIE issue facilities to identify, track, and
       report to the proper authorities, civilians and contractor employees who returned
       from deployment but did not return OCIE;
   •   developing system links between the contractor tracking system and OCIE issue
       facilities to automate notifications of contractor employment status;
   •   assessing records and initiating actions to obtain unreturned OCIE or
       reimbursement from civilians and contractor employees;
   •   publishing a memorandum from the Director, Defense Procurement and
       Acquisition Policy emphasizing the need for DoD Components to include proper
       language in new contracts to hold contracting companies liable for unreturned
       OCIE; and
   •   identifying and modifying existing contracts to hold contracting companies liable
       for unreturned OCIE.



                                            12
Our Response
Comments from the Assistant Secretary of Defense for Logistics and Materiel Readiness
were responsive. Therefore, no further comments are required.

       2. Develop a time-phased plan with measurable goals and metrics regarding
implementing recommendations in DoD Office of Inspector General
Report No. D-2010-069, “Central Issue Facilities at Fort Benning and Related
Activities,” June 21, 2010.

Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments
The Assistant Secretary of Defense for Logistics and Materiel Readiness stated that the
Office of the Assistant Secretary of Defense for Logistics and Materiel Readiness will
develop a time-phased plan with specific corrective actions, measurable goals, and
metrics for tracking and implementing recommendations in the prior report by
February 28, 2013. The Joint Clothing and Textile Advisory Group will review the plan
at its meetings to track progress and provide oversight.

Our Response
Comments from the Assistant Secretary of Defense for Logistics and Materiel Readiness
were responsive. Therefore, no further comments are required.

Department of the Army Comments
Although not required to comment, the Director, Supply Directorate, Army G-4 provided
informal comments and agreed with the response from the Office of the Under Secretary
of Defense for Acquisition, Technology, and Logistics. The Director stated that
Army G-4 will participate with the working group that OUSD(AT&L) is establishing to
develop and implement procedures to recover OCIE from civilians and contractors. The
Director also stated that Army G-4 has ongoing improvements to CIF-ISM, with the goal
of creating e-mail alerts to key personnel responsible for managing OCIE and contract
enforcement.




                                           13
Appendix A. Scope and Methodology
We conducted this performance audit from January 2012 through November 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We concluded that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. We excluded from our review follow up on
Recommendation (1)(b) from Report No. D-2010-069. As noted on page 1, this
recommendation related to ensuring civilians and contractor employees turned in OCIE
to the in-theater CIF before returning from deployment and ensuring they transferred
custody of chemical-biological equipment before redeploying. However, we did not
include this in our review because the Army did not establish a fully functioning CIF in
theater as planned and the Army tracks chemical biological equipment using different
regulations and a different property accountability system.

We reviewed agendas, meeting minutes, briefings, and other documentation related to the
Joint Clothing and Textiles Governance Board and Advisory Group meetings held
between May 2011 and November 2012. We reviewed Federal Acquisition Regulation
and Defense Federal Acquisition Regulation Supplement clauses related to contractor
deployment. We also reviewed DoD and Army guidance related to property
accountability, materiel management, and civilian and contractor deployment.

We reviewed documentation for outstanding OCIE issued to civilians and contractor
employees from the CIFs at Fort Benning and Camp Atterbury. Specifically, at
Fort Benning, we reviewed logs for outstanding DD Forms 200, “Financial Liability
Investigation of Property Loss (FLIPL),” dated October 2010 through March 2012.
We reviewed supporting documentation for a nonstatistical sample of these claims to
verify the accuracy of the logs. At Fort Benning, we also reviewed a CIF-ISM query to
identify the amount of OCIE issued to civilians and contractor employees by the
Fort Benning CIF between FY 2007 and FY 2010 that was still outstanding, as of
May 2012. At Camp Atterbury, we reviewed documentation for outstanding
DD Forms 362, “Cash Collection Voucher/Statement of Charges,” dated March 2011
through May 2012.

We conducted site visits to and interviewed personnel at Fort Benning, Georgia, and
Camp Atterbury, Indiana. We attended meetings of the Joint Clothing and Textiles
Governance Board and Advisory Group in June, July, and November 2012. In addition,
we interviewed personnel from the following organizations.

   •   Office of the Under Secretary of Defense for Acquisition, Technology, and
       Logistics, Arlington, Virginia
   •   Office of the Assistant Secretary of Defense for Logistics and Materiel Readiness,
       Alexandria, Virginia
   •   Defense Procurement and Acquisition Policy, Arlington, Virginia
   •   Defense Manpower Data Center, Alexandria, Virginia



                                           14
   •   Office of the Assistant Secretary of the Army for Acquisition, Logistics, and
       Technology, Arlington, Virginia
   •   Headquarters, Army G-4, Arlington, Virginia
   •   Army Materiel Command, Redstone Arsenal, Alabama
   •   OCIE Central Management Office, Aberdeen Proving Ground, Maryland
   •   Program Executive Office – Enterprise Information Systems, Alexandria, Virginia

Use of Computer-Processed Data
We relied on data from CIF-ISM to support our audit findings and conclusions.
Specifically, we relied on DD Forms 200 and DD Forms 362 generated by CIF-ISM for
unreturned OCIE. We also relied on data generated by a query from CIF-ISM.

To assess the reliability of this data, we reviewed documentation related to the
transactions, obtained information from the project manager regarding system controls,
observed various access controls at the CIFs, and reviewed accreditation reports for the
system. Based on this information, we determined that the data were sufficiently reliable
for the purposes of this report.

Prior Coverage
During the last 5 years, the Department of Defense Office of Inspector General
(DoD OIG) issued one report discussing the recovery of OCIE from civilians and
contractor employees. Unrestricted DoD OIG reports can be accessed at
http://www.dodig.mil/pubs/index.cfm.

DoD OIG
DoD Office of Inspector General Report No. D-2010-069, “Central Issue Facility at
Fort Benning and Related Army Policies,” June 21, 2010




                                           15
Appendix B. Report No. D-2010-069 Finding,
Recommendations, and Internal
Control Weaknesses
Report No. D-2010-069 identified one finding, four recommendations, and five internal
control weaknesses. The following sections outline the details from the audit report.

Army Controls Over Organizational Clothing and
Individual Equipment Items Issued to Civilians and
Contractor Employees
The Army’s process for issuing OCIE ensured that civilian and contractor employees
received the required clothing and equipment. However, the Army’s process for
recovering OCIE from civilians and contractor employees on completion of their mission
needs improvement. The amount and value of unreturned, recoverable OCIE issued to
civilians were unavailable. However, of 940 contractor employees who deployed during
FYs 2006 and 2007 and subsequently returned home, 749 (about 80 percent) did not turn
in recoverable OCIE, valued at $2.5 million, as required by the Army’s Personnel Policy
Guidance. Items were not recovered because management controls for recovering or
obtaining reimbursement for the items were inadequate. Specifically, the Army did not
develop procedures and controls to:

   •   capture information necessary to identify and hold accountable civilians and
       contractor employees for OCIE issued to them before deployment,
   •   determine when civilians and contractor employees returned from deployment,
   •   identify civilians and contractor employees who did not return their recoverable
       OCIE,
   •   ensure processing of returning civilians and contractor employees through a
       Continental United States Replacement Center and a CIF to return recoverable
       OCIE, and
   •   recover the items or obtain reimbursement for unreturned, recoverable OCIE.

As a result, the Army was unable to determine the amount and value of unreturned OCIE
and had to expend resources to replace the items. Additionally, we determined that items
such as Kevlar vests and Enhanced Small Arms Protective Inserts were offered for sale
on Web-based auction sites. If the Army had implemented adequate controls for
recovering OCIE from civilians and contractor employees who ended their deployment,
the Army could have put at least $2.5 million to better use. During the audit, the Army
began to retain documentation, planned to initiate a process to determine when contractor
employees returned from deployment, and modified the Kuwait CIF mission to allow
turn-in of OCIE. The Army still needs to ensure that civilians and contractor employees
process through a CIF and return recoverable OCIE.




                                           16
Internal Control Weaknesses Identified in
Report No. D-2010-069
Report No. D-2010-069 identified that internal control weaknesses in the Army existed as
defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
Procedures,” January 4, 2006. Specifically, the report stated that Army G-4 (Logistics)
did not have processes to:

   •   capture information necessary to identify and hold accountable civilians and
       contractor employees for OCIE issued to them before deployment,
   •   determine when civilians and contractor employees returned from deployment,
   •   identify civilians and contractor employees who did not return their recoverable
       OCIE,
   •   ensure processing of returning civilians and contractor employees through a
       Continental United States Replacement Center and a CIF, and
   •   recover the items or obtain reimbursement for unreturned, recoverable OCIE.

Therefore, the Army could not identify civilians and contractor employees who did not
return OCIE, and the Army could not recover or obtain reimbursement for unreturned
OCIE.

Recommendations From Report No. D-2010-069
We recommend that the Director, Defense Procurement and Acquisition Policy:

        1. Establish a working group to include officials from the U.S. Central
Command, Defense Finance and Accounting Service, Defense Logistics Agency, Office
of the Deputy Assistant Secretary of the Army (Procurement), Office of the Deputy Chief
of Staff of the Army G-4 (Logistics), Navy, and Air Force to improve recovery of
Organizational Clothing and Individual Equipment. The working group should develop
procedures to:

             (a) Identify civilians and contractor employees who returned from
deployment but did not turn in the recoverable Organizational Clothing and Individual
Equipment they were issued.

                (b) Ensure all civilians and contractor employees turn in their recoverable
Organizational Clothing and Individual Equipment items to the in-theater central issue
facility before returning from deployment, and enforce the requirement to transfer
custody of protective chemical-biological equipment to supply as required by the
Personnel Policy Guide for Overseas Contingency Operations.

                (c) Obtain recoverable Organizational Clothing and Individual Equipment
or reimbursement from civilians and contractor employees whose employees did not turn
in their recoverable Organizational Clothing and Individual Equipment items.




                                            17
              (d) Obtain unreturned recoverable Organizational Clothing and Individual
Equipment or reimbursement for unreturned Organizational Clothing and Individual
Equipment issued to civilians and contractor employees in prior years.

       2. Implement the procedures developed by the working group.

      3. Require central issue facility personnel to retain civilians’ and contractor
employees’ contact information to enable the CIF to contact them if they do not return
Organizational Clothing and Individual Equipment.

         4. Require DoD Components to include proper clauses and contract language in
new contracts and modify existing contracts so that contractors can be held liable for the
recoverable Organizational Clothing and Individual Equipment issued by central issue
facilities to deploying employees but not returned on mission completion.

Synopsis of Comments in Response to
the Recommendations
The Director, DPAP, partially agreed with Recommendations 1-3, regarding the
establishment of a working group to improve the recovery of OCIE. Since the policies
and procedures relating to the issuance of OCIE to contractors and civilians is a logistics
management function, the Director, DPAP, recommended that the lead for the working
group reside with OASD(L&MR) with support from Joint Chiefs of Staff J4 and the
Under Secretary of Defense for Personnel and Readiness. The Director, DPAP, agreed to
provide the necessary technical input on procurement policies and instructions and to
make recommendations to provide the necessary procurement policy support. The
Director, DPAP, coordinated this response through OASD(L&MR). Officials from
OASD(L&MR) did not provide any additional comments to the report.

The Director, DPAP, agreed with Recommendation 4, stating that the Defense Federal
Acquisition Regulation Supplement Clause 252.225-7040, “Contractor Personnel
Authorized to Accompany U.S. Armed Forces Deployed Outside the United States,”
identified contractor deployment requirements, to include procedures for processing
through deployment centers and contractor requirements relating to the issuance and
return of military clothing and protective equipment. The Director, DPAP, added that the
clause is required in all contracts where contractors are deployed from the United States
to locations overseas in support of contingency operations. The Director, DPAP, agreed
to evaluate the need to improve the required clause in current and future contracts and
provide additional procurement policy and guidance as necessary to enable the proper
issuance and return of Army and service issued OClE in consideration of the
recommendations developed by the working group.




                                            18
Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments




                  Click to add JPEG file




                                   19
20
